No.

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID CLAYTON CONERLY—PETITIONER
VS..
UNITED STATES OF AMERICA—RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE U.S. COURT OF APPEALS FOR THE NINTH CIRCUIT

Steven S. Lubliner (California State Ear No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
P.Q. Box 750639
Petaluma, CA 94975
Phone: (707)789-0516
e-mail: sslufeliner@cGmcast.net
Attorney for David Clayton Conerly

>

QUESTION PRESENTED FOR REVIEW
Did the Ninth Circuit err by mining the district record to uphold
an upward adjustment to petitioner’s offense level under the
Sentencing Guidelines? Should it instead have reviewed only the
sufficiency of the evidence actually cited by the district court* the
approach used by the D.C. Circuit in United States v. Hart, 324 F.3d
740 (D.C. Cir. 2003), which better accords with the commands of the
statutes governing the imposition and re vie w of sentences?

i

(

>

LIST OF PARTIES
All parties appear in the caption of the case on the cover
page.

ii

>

LIST OF PRIOR PROCEEDINGS
• United States v. ConerlyNorthern District of California, case no,.
17-CR-578-JSW. Judgment entered November 27, 2018.
• United States v. Conerly, U.3. Court of Appeals for the Ninth
Circuit, 9th Cir. No, 18-10454, Judgment entered January 14,
2020. Rehearing and en banc review denied April 16, 2020.
* No prior state court proceedings.

iii

>

TABLE OF CONTENTS
OPINIONS BELO W

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

1

STATEMENT OF THE CASE

2

STATEMENT OF FACTS

3

REASONS FOR GRANTING THE PETITION

5

I. The Ninth Circuit Incorrectly Upheld the Challenged
Four-Level Upward Adjustment to Petitioner’s Offense
Level by Going Beyond the Evidence Cited by the
District Court and Mining the Record for Other
Supporting Evidence.

5

A. Introduction

5

B. Relevant Facts and Procedural Background

5

1. Proceedings in the District Court

5

2. The Ninth Circuit’s Decision

12

C. Discussion

13

CONCLUSION

18

iv .

INDEX TO APPENDIX IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
Volume 1
NINTH CIRCUIT MEMORANDUM DECISION
Filed January 14, 2020

1

NINTH CIRCUIT ORDER DENYING
REHEARING AND EN BANC REVIEW
Filed April 16, 2020

3

JUDGMENT OF THE DISTICT COURT
Entered November 27, 2018

4

TRANSCRIPTS OF SENTENCING HEARING
Held in the District Court November 20, 2018

12

DEFENDANT’S SENTENCING MEMORANDUM
(without exhibits)
Filed in the District Court November 14, 2018

36

GOVERNMENT’S SENTENCING MEMORANDUM
Filed in the District Court November 13, 2018

46

MINUTE ORDER OF CHANGE OF PLEA HEARING
Filed in the District Court June 19, 2018......................

63

DEFENDANT’S APPLICATION TO PLEAD GUILTY
Filed in the District Court June 20, 2018......................

64

Sealed Documents
PRESENTENCE REPORT
Filed in the District Court November 6, 2018

v

PSR 1-34

TABLE OF AUTHORITIES CITED
Cases
United States i>. Alexanderr48 F.3d 1477 (9th Cir. 1995)________.....__ 14,17
United States u. Gasca-Ruiz, 852 F.3d 1167 (9th Cir. 2017) (en banc) ..

.. 17

United States v. Hart,.324 F.3d 740 (B.C. Cir. 2003)....................

5, 15, 16

United States v. Hinkson, 585 F.3d 1247 (9th Cir. 2009) (en banc)

17

United States v. Polanco, 93 F.3d 555 (9th Cir. 1996)

13, 14, 16, 17

Statutes
18 U.S.C. §922...........

2,5

18 U.S.C. § 3231..........

1

18 U.S.C. § 3742.... .....

1, 12, 14, 15

28 U.S.C. § 1254..........

1

28 U.S.C. § 1291_____

___I

Other Authorities

USSG § 2K2.1

2, 6, 13

USSG § 3E1.1

6,

Rules
Supreme Court Rule 10

5

vi

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
The memorandum decision of the U.S. Court of Appeals for the Ninth
Circuit affirming the judgment and the subsequent order denying rehearing
and en banc review are unpublished. (Appendix (“App”) 1, 3.)
JURISDICTION
On January 14,2020, a panel of the U.S. Court of Appeals for the Ninth
Circuit issued a memorandum decision affirming the judgment. (App. 1.) On
April 1-6, 2020, the Ninth Circuit denied rehearing and en banc review. {App.
3.) The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1), The
district court had jurisdiction of the case pursuant to 18 U.S.C. § 3231. The
Court of Appeal had jurisdiction of petitioner s appeal pursuant to 28 U.S.C. §
1291 and 18 U.S.C. § 3742.
CONSTITUTIONAL PROVISIONS, STATUTES AND RULES
18 USC 3 3742faX2)
A defendant may appeal a sentence arguing that it was “was imposed as a
result of an incorrect application of the sentencing guidelines[.j”
18 USC S 3742(e)
“The court of appeals shall give due regard to the opportunity of the district
court to judge the credibility of the witnesses, and shall accept the findings of
1

fact of the district court unless they are clearly erroneous and, except with
respect to determinations under subsection (3)(A) or (3)(B), shall give due
deference to the district court’s application of the guidelines to the facts. With
respect to determinations under subsection (3)(A) or (3)(B), the eourtef
appeals shall review de novo the district courts application of the guidelines
to the facts.”
STATEMENT OF THE CASE
On June 19, 2018, petitioner David Clayton Conerly (“petitioner”) pled
guilty to one count of being a felon in possession of a firearm and ammunition
in violation of 18 U.3.C. § 922(gXl)- (App. 63.) There was no plea agreement.
On November 27,2018, the district court sentenced petitioner to 108 months
in prison. (App. 5.) At sentencing, the district court increased petitioner’s
offense level by four levels under USSG § 2K2.1(b)(6)(B), finding that he had
unlawfully possessed the firearm in connection with the felony of possessing
cocaine base, and rejecting petitioner’s challenge that the evidence was
insufficient. (App. 13-14.)
Petitioner raised the issue presented here on appeal, arguing that a
four-level upward adjustment to his offense level under the advisory
Sentencing Guidelines was not supported by the evidence cited by the district
court, A panel of the Ninth Circuit rejected the argument and affirmed the
judgment in a memorandum decision filed January 14, 2020. (App. 1-2.) After
2

receiving an extension of time, petitioner sought rehearing and en banc
review. On April 16, 2020, the Ninth Circuit denied the petition. (App. 3.)
STATEMENT OF FACTS
On November 2, 2017, Berkeley Police Department officers responded
to the report of an assault with a deadly weapon. The officers made contact
with the victim, who stated that petitioner, her ex-boyfriend, had come to her
residence in an intoxicated state. Fearing for her safety she grabbed a hat she
had at the doorway, and after a brief verbal altercation, petitioner grabbed
the bat from her. Petitioner then threw the bat at the victim and hit her with
the bat in the leg. The victim told petitioner she was going to call the police,
and he left on foot. (PSR 4.)
The officers conducted an area check and located petitioner. Petitioner
Bed and did not comply with commands. After a brief foot chase, he was
detained. Nearby, a .40 caliber handgun with an extended magazine was
discovered. There were no bullets in the magazine or in the chamber. The
magazine had a 30-round capacity, but responding officers noted the base
plate of the magazine and the spring were missing. These missing pieces
would have allowed the rounds of ammunition to fall to the ground. (PSR 45.)
Five .40 caliber unspent rounds were located near where petitioner was
apprehended. Two additional rounds were found during a search of
3

petitioner’s person. Also found was suspected base cocaine that the officers
believed was packaged for sale and a small plastic bag of marijuana. A
Narcotics ID Kit test confirmed that petitioner was in possession of 20.93
grams of base cocaine. {P3R 5.)
After he was detained and during his transport, petitioner behaved
violently towards the officers, threatening them, spitting at them, and
kicking one of them. Be was placed in a spit hood and a WRAP restraint and
put in the police car. During transport, he banged his head repeatedly on the
Plexiglass divider and tried to kick out the rear driver’s side window. At the
Berkeley jail, petitioner was placed in a safety cell and sedated. He was then
taken to the hospital for evaluation, (PSR 5.)
After being declared “fit for incarceration” by the hospital staff,
petitioner was taken to Santa Rita jail. A booking search of his person turned
up four more rounds of ammunition, $737.98 in cash, and a baggie of white
powder, which was tested and confirmed by a NIK test to be 4.85 grams of
powder cocaine.1 (PSR 5.)

1 Petitioner posted bail in state court. After federal charges were filed, he was
eventually arrested without incident in southern California. (PSR 8.)
4

REASONS FOR GRANTING THE PETITION
I* The Ninth Circuit Incorrectly Upheld theChalleneed FourLevel Upward Adjustment to Petitioner’s Offense Level bv
Going Beyond the Evidence Cited by the District Court and
Mining the Record for Other Supporting E vidence.
A. Introduction
It is often said that proceedings in the trial court should be the main
event. However, the Ninth Circuit allows reviewing courts to search the
record for evidence supporting sentencing findings when the evidence cited by
the district court is invalid. This conflicts with the D.C. Circuit’s holding in
United States v. Hart, 324 F.3d 740 {D.C. Cir. 2003) that district courts may
not do so. Hart better accords with the commands of federal sentencing
statutes. This Court should grant certiorari and settle the matter. Supreme
Court Rule 10(a), (c).
B. Relevant Facts and Procedural Background
1. Proceedings in the District Court
The Presentence Report recited the offense conduct as set out above.
(PSR 4-6,) It recited that petitioner’s conviction under 18 LLS.C. § 922(g)(1)
carried a statutory maximum sentence of ten years in prison. (PSR 1.) The
advisory Guidelines range was 100 to 125 months, which was capped at 120
months, (PSR 26.)

5

Petitioner’s adjusted offense level was 27. The base offense level was 26
pursuant to USSG § 2K2.1(a)(1) because petitioner possessed a handgun with
a large capacity magazine after having sustained two convictions for
possession for sale. This was increased to 30 by the challenged four-level
increase under USSG § 2K2.1(b)(6)(B) far possessing the firearm in
connection with another felony, the possession of powder cocaine and cocaine
base for sale. Because petitioner pled guilty, the adjusted level was reduced
to 27 for acceptance of responsibility pursuant to USSG § 3El.l(a)-(b).) (PSR
7-8.)
The PSR recited that petitioner had nine criminal history points. This
put him in Criminal History Category IV, yielding the initial range of 100 to
125 months. (PSR 8-11.) The PSR also recited petitioner’s arrest history that
resulted in dismissals or parole violations but not convictions and criminal
history points. (PSR 12-20.)
Pertinent to the challenged four-level increase, paragraph 14 of the
PSR recites: “Mr. Gonerly’s text messages included several incoming text
messages into Mr. Conerly’s cell phone with individuals asking for prices and
specific types of marijuana strains. There was also text message
communication from individuals and Mr. Conerly discussing meeting
locations and ability to provide currency for requested drugs.” (PSR 6.) The

6

PSR does not clarify if “requested drugs” includes cocaine base or is limited to
marijuana as mentioned in the first sentence of this paragraph.
Paragraph 15 of the PSR recites:
“On October 29, 2018, the undersigned received email
correspondence from the Government regarding a declaration
from California Highway Patrol Officer Sean Deise. The
declaration was for the purpose of providing contextual evidence
to support Mr. Conerly’s involvement in possession of cocaine
base for sale and transportation of cocaine base for sale. Officer
Deise reported cocaine base is a CNS (Central Nervous System)
stimulant with a usable amount weighing as little as -10 grams.
Due to Mr. Conerly having a total ofl7.52 grams of cocaine base
on his person during the time of the instant offense, Officer Deise
opined this amount would far exceed the amount considered for
personal use. Officer Deise reported due to cocaine base being
sold on the streets for as little as $5.00 to $10.00, it would be
reasonable for Mr. Conerly to have currency with various
denominations to facilitate drug sales.” (PSR 6.)
The PSR does not suggest that Officer Deise opined about marijuana sales.
The Deise opinion was attached to the government’s sentencing brief.
(App. 57-58.) Though it recites that it is an “affidavit,” it is not signed under
penalty of perjury. It recites Deise’s belief, quoted above in the PSR, that the
amount of cocaine base found on petitioner was inconsistent with personal
use and that the amount and denominations of cash found on him was
consistent with sales of cocaine base. Deise cited his “training and
experience” on this latter point. Deise also recited petitioner’s prior drug.
convictions and claimed that petitioner had “a propensity of selling narcotics,

7

specifically cocaine, cocaine base, and marijuana.” Deise did not, however,
opine that petitioner was selling marijuana or powder cocaine. (App. 58.)
Deise’s curriculum vitae was attached to the “affidavit.” (App. 59-62.)
He had heen a CHP officer since 2008. His narcotics-related training and
work was a Drug Recognition Expert (“DRE”), (App, 59-61.) The CV recites no
training and experience in evaluating possession for sales cases or the
behavior of addicts. Deise had testified in court many times, including 20
cases involving, drug possession and/or drug sales. However, he only testified
as an expert in ten cases. In those cases, he was qualified either as an expert
on PAS or DRE.2 {App. 01.) He was never qualified as an expert on possession
for sale.
The government’s sentencing brief recites that petitioner’s cell phone
contained “multiple text messages reflecting drug trafficking activity,
including requests for price quotes and certain strains of marijuana. PSR, f.
13. There was also a message in which the defendant spoke about having a
certain quantity of something that was "spoon-ready.”’ {App. 49-50.) Neither
the PSR nor any other source is cited for this latter fact.
Addressing the general seriousness of the offense, the government
noted that petitioner “was in possession of a loaded gun while also in

2 PAS refers to preliminary alcohol screening devices.
8

possession of crack cocaine, which he intended to sell.” (App. 52.) Addressing
the challenged four-level enhancement specifically, the government wrote,
“The 4-level increase under 2K2.2(b)(6)(b) for possession of the
firearm in connection with another felony is warranted because
the defendant was in possession of crack cocaine for sale at the
time be possessed the gun- The defendant has a long history of
selling crack cocaine, including in quantities similar to the
amount he possessed in this case, and he routinely carries a
loaded gun while dealing drugs. The evidence in support of his
enhancement includes the quantity of drugs he possessed in this
case, the currency he had in small denominations, the opinion of
CHP Officer Beise that the defendant was in possession of crack
cocaine for sale, and the defendant’s history of selling crack while
armed, which is documented in the PSR.” (App. 52.)
The government did not argue that any marijuana activities justified the
four-level increase. It did not argue that petitioner was selling powder
cocaine.
Petitioner raised two objections to the presentencing report. He argued
that one of his marijuana convictions that had been dismissed in California
should not count as part of his criminal history. (App. 39-42.) He also argued
that the four-level enhancement for illegally possessing a firearm in
connection with a felony was not supported by substantial evidence. (App. 3739.) This was because Beise’s opinions were not persuasive evidence that
petitioner possessed cocaine base for sale when he was arrested and because
the seemingly drug-related text messages on petitioner’s phone related to
marijuana, not cocaine base.

9

“Moreover, the government has not established by a
preponderance of the evidence that the amount of cocaine
possessed by Mr. Conerly could only have been possessed for sale
as opposed to possession for personal use. The only evidence
relied on by the government to establish that the aforementioned
drugs were possessed for sale is the unsigned ‘affidavit5 of a
California Highway Patrol Officer, who is completely unqualified
to render an opinion that Mr. Conerly possessed the cocaine for
sale. (Exhibit B) That ‘affidavit5 reveals that the CHP officer has
no personal or other experience with street level drug dealing.
The ‘Curriculum Vitae5 submitted with the ‘affidavit5 is
completely devoid of any relevant experience dealing with street
level drug dealing of any kind or the amount of or doses of drugs
used by people who are abusing drugs as opposed to selling
drugs. The only drug related law enforcement experience
remotely possessed by the affiant appears to be (a) performing
‘DRE5s,5 which are drug recognition examinations conducted at
the roadside when a vehicle is pulled over for erratic driving and
the driver is suspected of either drug or alcohol use and (b)
testifying in court during a trial of persons arrested for driving
under the influence of drugs. Also, the CHP officer’s review of
‘Conerly’s criminal history5 as a component of his opinion sheds
little light on the issue herein, which is whether or not the drugs
found on Mr. Conerly on Novembers, 2017 were possessed for
sale, not whether Mr. Conerly has a propensity for possessing
drugs for sale in his past. Finally, the search of Mr. Conerly’s
phone reveals a number of conversations which are consistent
with a person who was selling street level quantities of
marijuana as opposed to cocaine. This also would explain why, at
the end of the night, Mr. Conerly possessed $737 in currency.
Based on the fore going, we request that the Court reduce Mr.
Conerly’s offense level by four points.55 (App. 38-39 [emphasis in
original!.)
At the sentencing hearing on November 20, 2018, the issue of the fourlevel increase was disposed of without further argument.
“The Court will overrule that objection. I believe that based upon
the evidence submitted based upon the information contained in
the presentence report, particularly as to what was on the phone,
10

found on the phone, tho information from the CHP officer,
although the defendant attacks the credibility and reliability and
competence of the officer to opine, I think that goes to the weight
and not the admissibility. This is a sentencing proceeding, and I
believe that the Court—there is—can find by a preponderance of
the evidence that the basis for that particular four-point
enhancement, four-level enhancement is justified, and we’ll
maintain that” (App, 13-14,)
Neither petitioner’s criminal history nor his alleged “propensity” to sell drugs
while armed was cited in support of the true finding. The court did not recite
that possession of cocaine base for sale was established as a matter of
common sense in light of the known facts. (App. 13-14.)
The district court agreed that the challenged marijuana conviction
should not count in petitioner’s criminal history. This put petitioner in
Criminal History Category III instead of Category IV. It reduced the advisory
Guidelines range to 87 to 108 months from 100 to 125 months. (App. 19-20.)
The government asked for a high-end sentence of 108 months given
petitioner’s “pretty heinous” background and the circumstances of this case,
which involved threats to another person. {App. 20.) Defense counsel urged a
reduced sentence given petitioner’s recent efforts to turn his life around by
attending truck driving school as well as his advancing age, which both
suggested a diminished potential for recidivism and counseled in favor of a

n

lower sentence to allow him to build a career. (App. 21-23.)3 Addressing the
court* petitioner emphasized the efforts he had made and hoped to continue
making. He regretted starting drinking again and allowing everything to fall
apart. He said he had not intended to hurt anyone the day he was arrested.
(App. 24-26.)
The district court sentenced petitioner to 108 months in federal prison
to be followed by three years of supervised release. (App. 31.) It cited
petitioner’s lengthy record, the fact that a prior felon-in-possession case had
been dismissed when a motion to suppress had been granted, and petitioner’s
violent behavior on the day of the incident, both to the woman and to the
officers. The high-end sentence was necessary to deter petitioner from future
misbehavior and to protect the public. (App. 26-31.)
2. The Ninth Circuit’s_D_e.cision
The Ninth Circuit panel held;
“The district court’s finding that Conerly possessed cocaine base
with the intent to sell was not ‘illogical, implausible, or without
support in inferences that may be drawn from the facts in the
record.’ United States v, Hinkson, 585 F.3d 1247, 1263 (9th Cir.

3 Petitioner’s sentencing brief discussed his traumatic upbringing, his efforts
to become a truck driver, and other attempts to better himself. (App. 42-44.)
Defense counsel attached documentation supporting these points and
numerous letters of support. Because the error in calculating the advisory
Guidelines range requires reversal and remand, 18 U.S.C. § 3742(f)(1), these
documents are not included in the Appendix and need not foe summarized
further.
12

2009) (en banc). The totality of the evidence in the record
supports the district court’s finding that Conerly’s possession of
the firearm potentially emboldened his efforts to sell crack
cocaine, see United States v. Polanco, 93 F.3d 555, 567 (9th Cir.
1996), and the court did not abuse its discretion by applying the
section 2K2.1(b)(6)(B) enhancement, see Gasca-Ridz, 852 F.dd at
170.” (App. 2.)
The panel did not address whether the evidence the district focused on—the
Deise affidavit and the texts on petitioner’s phone—supported its finding.
C. Discussion
Under USSG § 2K2.1(b)(6)(B), the offense level for being a felon in
possession of a firearm is increased by four levels if the defendant “used or
possessed any firearm or ammunition in connection with another felony
offense; or possessed or transferred any firearm or ammunition with
knowledge, intent, or reason to believe that it would be used or possessed in
connection with another felony offense[.)” In challenging the increase,
petitioner focused on the two factors expressly cited by the district court: 1)
the text messages, and 2) the unsworn Deise “affidavit.” In affirming, the
panel relied on the entire “record” and the “totality of the evidence.” Thus,
the panel affirmed a finding that the district court did not make. This was
inappropriate.
The Court of Appeals cited United States v, Polanco, 93 F.3d 555, 566
(9th Cir.), cert, denied, 519 U.S. 973 (1996), for the proposition that the
upward adjustment can be affirmed en any basis supported by the record.
13

(App. 2.) While Polanco addressed an upward adjustment fer use ef a firearm,
it relied on United States u. Alexander, 48 F.3d 1477, 1487 (9th Cir,), cerL
denied, Alexander v. United States, 516 U.S. 878 (1995), which applied the
"any basis supported by the record” to a question of admissibility of evidence.
Polanco should not have relied on Alexander in this way.
It is one thing to say that if a defendant focused on one legal rationale
for excluding evidence in the trial court, he may not complain if a reviewing
court finds the evidence admissible on another legal theory. Resolving that
question of law on appeal generally will not usurp the trial courts role as fact
finder. That has nothing to do with review of sentencing decisions grounded
in findings of disputed fact and credibility determinations. Polanco is
inconsistent with the statutes governing imposition and review of sentences.
A defendant may appeal a sentence arguing, inter alia, that it was “was
imposed as a result of an incorrect application of the sentencing guidelines]. J”
18 U.S.C. § 3742(a)(2) [emphasis added]. Further, in reviewing a sentence,
“The court of appeals shall give due regard to the opportunity of
the district court to judge the credibility of the witnesses, and
shall accept the findings of fact of the district court unless they
are clearly erroneous and, except with respect to determinations
under subsection (3)(A) or (3)(B), shall give due deference to the
district court's application of the guidelines to the facts. With
respect to determinations under subsection (3)(A) or (3)(B), the

14

court of appeals shall review de novo the district court’s
application of the guidelines to the facts.” 18 U.S.C. § 3742(e).4
Thus, except where de novo review is appropriate, reviewing courts review
what the district court actually did, not what it might have done had it found
other evidence or sentencing factors persuasive.
The case of United States v. Hart, 324 F.3d 740 (D.C. Cir. 2003)
illustrates the appropriate division of labor between federal trial and
reviewing courts. The D,C. Circuit addressed a challenge to the same fourlevel increase at issue here. Id. at p. 741. The district court had noted that
the increase could he justified by several scenarios supporting either
possession or use in connection with a felony. However, it did not specify
what it believed actually happened. Id. at p. 744. The D.C. Circuit held that a
finding grounded in two of the three possible scenarios would be legal error.
IcL at p, 750, It did not then uphold the decision on the theory that it was
supported by the evidence. Instead, it remanded for clarification even though
it assumed that the district court would ultimately reach the factually
supported result. Id, at p, 751, It deemed it “essential that the district court
enunciate its findings in detail sufficient to allow this court to conduct its
review without struggling to find evidentiary finks.” Id. at p. 743.

4 Subsections 3(A) and 3(B) deal with the district court’s failure to state
reasons and allegedly improper upward departures.
15

That is not what the Ninth Circuit did in Polanco. There, the district
court had imposed the four-level increase challenged here, finding that the
defendant had “used” the firearm in question in connection with a felony.
United States v. Polanco, supra, 93 F.3d at p. 560. The Court held that in
light of an intervening Supreme Court decision, the use finding could not be
sustained as a matter of law. Id. atp. 566. Rather than reverse and remand,
the Court examined the record on its own and made findings of fact that the
defendant had “possessed” the firearm in question, which allowed it to affirm
the judgment. Id. at p. 567.
Polanco is inconsistent with the standards of review set out in the
sentencing statutes above. The approach in Hart which limited review to the
findings of the district court is more faithful to those statutes. This Court
should grant certiorari and confirm that Hart states the better rule.
This is an appropriate case in which to settle this issue. The text
messages do not prove that petitioner was selling cocaine base. From what
we know, they dealt entirely with marijuana, with the possible exception,
according to the government’s sentencing brief, of an unexplained reference
to something being “spoon-ready.” Neither the PSR nor Officer Deise nor the
government deemed this a marijuana sales issue. Therefore, the text
messages cannot sustain the enhancement.

16

Deise had never testified as an expert an possession for sale, and he
had no training in the matter or, apparently, in the acquisitive habits of
addicts who might be abusing drugs rather than selling them. Deise threw in
a make-weight observation about petitioner’s criminal propensity to sell
drugs, which says nothing about what he was doing on the day in question.
On the other hand, Deise ignored the strong evidence suggesting that
petitioner might have been selling marijuana rather than cocaine base as the
government alleged. His unsworn opinion was entitled to no weight.
Finally, the Ninth Circuit’s citation to United States v. Gasca-Ruiz, 852
F.3d 1167, 1170 {9th Cir. 2017) {on banc) or United States v. Hinkson, 585
F.3d 1247, 1263 (9th Cir, 2009) (en banc) do not salvage its decision, (App. 2.)
Hinkson set out how to evaluate whether a district court had abused its
discretion in denying a motion for new trial. Like Alexander, the evidence
case, it has nothing to do with this issue, Gasca-Ruiz held that a district
court’s decision to apply a Sentencing Guideline to the facts it found is
reviewed for abuse of discretion because district courts are better situated to
make such decisions in the first instance. It did not hold, as Polanco did, that
a reviewing court can affirm the district court’s factual findings by ignoring
the weakness in the evidence the district court actually credited and making
its own findings.

17

CONCLUSION
For the foregoing reasons, the petition for writ of certiorari- should be
granted.
Dated: July 8, 2020

Steven S. LubKner
Law Offices of Steven S. Lubtiner
P.O. Box 75G689
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: sslubliner@comcast.net

m

